              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Planned Characterization Capability
At The Waste Isolation Pilot Plant




DOE/IG-0577                                 December 2002
                    U. S. DEPARTMENT OF ENERGY
                          Washington, DC 20585

                             December 18, 2002




MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Planned Characterization
                          Capability at the Waste Isolation Pilot Plant"


BACKGROUND

The Waste Isolation Pilot Plant (WIPP), located near Carlsbad, New Mexico, is the Department
of Energy's underground repository for defense-generated Transuranic (TRU) waste. TRU waste
consists of such items as clothing, gloves, and tools contaminated with small amounts of
radioactive elements. TRU waste that can be safely handled without special equipment when
contained is referred to as contact-handled TRU waste. As of December 2000, the Department
was responsible for the safe disposal of an estimated 167,000 cubic meters of contact-handled
TRU waste at 26 sites in 15 states nationwide.

Currently, contact-handed TRU waste is characterized before it is sent to WIPP. In June 2001,
however, the Department notified the New Mexico Environmental Department of its intention to
establish a centralized characterization capability for this material at the WIPP site. The
Department estimated that the proposed capability – consisting of new equipment, modification
of an existing building, new processes, and additional personnel – would expedite the removal
of contact-handled TRU waste from temporary storage sites and minimize total costs of disposal.
The objective of our audit was to determine whether the centralized capability would, in fact,
meet these expectations.

RESULTS OF AUDITS

The planned waste characterization capability at WIPP is unlikely to expedite the removal of
waste or save costs to the extent of management's estimates. In fact, our audit disclosed that of
the 26 sites with contact-handled TRU waste, the vast majority would not benefit from the
centralized capability. Although the Department contended that additional characterization
capabilities would inherently speed up the waste disposal process and save at least $100 million
over the life of the contact-handled TRU waste characterization program, it did not perform a
complete analysis to demonstrate where and how efficiencies would be gained. Without such an
analysis, the Department risks investing time and resources in an unnecessary capability,
ultimately delaying cleanup, increasing costs, and creating new health and safety concerns. We
recommended that the Assistant Secretary for Environmental Management suspend the
establishment of contact-handled TRU waste characterization capabilities at WIPP until a
complete analysis of associated costs and risks is performed.
                                                    -2-


In a number of previous reports, the Office of Inspector General has identified the need for the Department
to take a more comprehensive and coordinated approach to the management, and ultimately the disposal, of
various types of waste. In our Special Report on Management Challenges at the Department of Energy
(DOE/IG-0538, December 2001), we identified Environmental Standards and Stewardship as one of the
most difficult challenges the Department faces.

MANAGEMENT REACTION

Management concurred with our finding and recommendations.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Assistant Secretary for Environmental Management
    Manager, Carlsbad Field Office
PLANNED CHARACTERIZATION CAPABILITY AT THE WASTE
ISOLATION PILOT PLANT


TABLE OF
CONTENTS



               Characterization Capability at the Waste Isolation Pilot Plant

               Details of Finding ....................................................................... 1

               Recommendations and Comments ........................................... 4


               Appendices

               Management Comments ............................................................ 5

               Prior Reports .............................................................................. 6

               Objective, Scope, and Methodology .......................................... 7
CHARACTERIZATION CAPABILITY AT THE WASTE ISOLATION PILOT PLANT

Characterization       In its June 2001 Hazardous Waste Facility Permit Modification, the
Capability             Department of Energy (Department) notified the New Mexico
                       Environment Department of its intention to establish a centralized
                       characterization capability for contact-handled Transuranic waste (CH-
                       TRU) at its Waste Isolation Pilot Plant (WIPP). According to the
                       permit modification, the proposed capability would enable the
                       Department to expedite the removal of CH-TRU inventories from
                       smaller sites and supplement the characterization done at six larger
                       sites, while minimizing overall characterization costs. The December
                       2000 Environmental Impact Statement Supplemental Analysis noted
                       that additional characterization capabilities would inherently speed up
                       the cleanup process. In related documentation, the Carlsbad Field
                       Office (Field Office) estimated that the Department could save $5
                       million at each of the 20 smaller sites – $100 million in total – by
                       eliminating the need for characterization at those locations.

                       According to Department documentation, the central characterization
                       capability at WIPP would operate within the existing WIPP facility,
                       which would be modified to accommodate the equipment necessary for
                       supporting the characterization activities. The capability would involve
                       both non-intrusive and intrusive test equipment, including radiography
                       and gloveboxes. The Field Office estimated that an additional 35
                       personnel would be needed to operate the capability.

Department Estimates   We concluded that the Department's plans for a centralized waste
                       characterization capability at WIPP are unlikely to expedite CH-TRU
                       cleanup or minimize costs to the extent of management's estimates. We
                       found that the vast majority of sites with CH-TRU would not benefit
                       from a centralized capability, that management did not consider many
                       associated costs, and that expected efficiency gains were not explicitly
                       identified. More specifically:

                           •   A central characterization capability would provide no benefit
                               to 16 of the Department's 20 smaller CH-TRU waste sites. A
                               survey of these sites indicated that three were utilizing mobile
                               characterization units, and one was scheduled for the next
                               deployment of a mobile unit; five had non-defense waste,
                               which does not meet the current disposal criteria at WIPP; and,
                               seven were negotiating characterization agreements with larger
                               sites. If 16 of 20 sites do not use the capability, at least $80
                               million of the projected $100 million in savings appears
                               unattainable. Additionally, because of federal requirements
                               governing transport of radioactive materials, all sites would still
                               have to characterize the waste before it could be transported to

Page 1                                                                        Detail of Findings
                        WIPP. In fact, characterizing the waste for transportation is
                        more than 50 percent of the cost of fully characterizing the
                        waste.

                    •   Similarly, we determined that a central characterization facility
                        was unlikely to provide significant benefits to most of the six
                        larger sites. One site, for example, was bound contractually to
                        treat waste onsite and would not be allowed, under terms of its
                        contract, to ship waste to WIPP for characterization. Another
                        site already had a fully operable characterization facility and a
                        third was building a new facility, with construction 60 percent
                        complete at the time of our audit. Remediation at a fourth site
                        is expected to be complete by 2006, thus diminishing the
                        window of opportunity for a WIPP characterization capability
                        to expedite cleanup. Finally, a fifth site expressed interest in
                        retaining its mobile unit characterization to supplement its
                        ongoing characterization capability.

                    •   The Field Office's estimate of savings did not include detail on
                        how $5 million was to be saved at each of the smaller sites, nor
                        did it include an analysis of costs associated with establishing
                        the additional capability at WIPP. A life-cycle cost analysis –
                        to include costs of the permit modification, transportation and
                        training, facilities and infrastructure, facility operations, and
                        decontamination and decommissioning activities – was not
                        prepared. Further, the cost to decontaminate and decommission
                        the facilities was not formally estimated.

                    •   Although management stated that establishing an additional
                        CH-TRU waste characterization capability at WIPP would
                        expedite cleanup, it did not specify how cleanup would be
                        expedited or how much effort could be avoided.

Cost Analysis   The estimated benefits and savings associated with establishing the new
                characterization facility at WIPP were not credible because the Field
                Office did not fully evaluate the cost of the proposed capability or the
                cost of all reasonable alternatives when it evaluated the environmental
                impacts of the proposed capability. Management stated that the
                planned expenditures were not significant enough to warrant a full cost
                evaluation.

                Our audit also disclosed other factors and alternatives that had not been
                fully considered in the decision to establish the WIPP capability. For
                example, the Department has, or soon will have, six characterization

Page 2                                                               Detail of Findings
                           facilities and three mobile characterization units available at its sites.
                           Additional mobile units could also be contracted or procured. The
                           Field Office had not developed a scenario for using these existing
                           facilities prior to committing to an additional centralized capability at
                           WIPP.

                           As another example, in response to a recommendation in the
                           Department's recent Top-to-Bottom Review report, the Field Office
                           proposed that three existing characterization facilities be used as hubs
                           for processing the smaller sites' CH-TRU waste in conjunction with the
                           mobile characterization units and the centralized capability. This
                           alternative approach, however, was not subjected to a cost/benefit
                           analysis comparing all alternatives under consideration. Without such
                           an analysis, it is not clear whether the hub concept should be used in
                           lieu of the centralized capability, in conjunction with it, or at all.

Schedule, Cost, and Risk   Instead of accelerating cleanup and reducing costs, establishing a
                           centralized capability at WIPP could have the opposite effect. The
                           Field Office has already spent at least $2 million on facility
                           modifications and equipment, and will spend more to establish and
                           operate the capability at WIPP. Additionally, the Department has
                           incurred costs for the preparation, submission and coordination of the
                           permit modification; however, it cannot determine how much has been
                           spent on the permit process. Regardless of the amount spent, these
                           expenditures appear premature since the modification to the permit had
                           not been approved, and possibly will not be approved, by the New
                           Mexico Environment Department.

                           Clearly, the benefit of having a centralized waste characterization
                           capability at WIPP will continue to diminish as the larger sites begin
                           full-scale operations and the mobile characterization units continue
                           cleanup at the smaller sites. The Field Office contends that the permit
                           modification could be approved as early as calendar year 2004.
                           However, this appears to be overly optimistic, since the original permit
                           process required 4.5 years to complete.

                           Finally, characterizing CH-TRU waste at WIPP increases the likelihood
                           that prohibited waste might be shipped from the sites, resulting in
                           additional costs and health and safety risks. The Field Office's current
                           plan for central characterization would allow shipment of CH-TRU
                           waste based on "acceptable knowledge" rather than full
                           characterization. Under the acceptable knowledge approach, a list of
                           drum contents would be compared to transportation regulatory



Page 3                                                                             Detail of Findings
                      requirements. If no discrepancies were identified, the drum would be
                      sent to WIPP for the final disposal characterization. A likely
                      occurrence, however, would be that a percentage of drums would
                      eventually be rejected based on full characterization.1 Additional costs
                      would then be incurred to deal with the waste, and additional safety
                      risks could arise.


RECOMMENDATIONS       We recommend that the Assistant Secretary for Environmental
                      Management direct the Field Office to:

                           1. Conduct a cost and schedule analysis comparing the costs for
                              establishing characterization capability at WIPP versus new
                              construction at small quantity sites and utilizing existing
                              characterization at the larger sites.

                          2. Not proceed with establishing a characterization capability at
                             WIPP pending the results of the analysis.


MANAGEMENT REACTION   In written comments included as Appendix 1 to this report, the
                      Assistant Secretary for Environmental Management agreed that a cost
                      analysis should be performed, and that activities associated with the
                      capability should not proceed until the analysis is completed. The
                      Assistant Secretary also offered some clarifying comments that have
                      been incorporated into the report.




                      1
                       To illustrate the concern, at the mobile characterization unit being used at the
                      Savannah River Site, 354 of 2,419 drums meeting the "acceptable knowledge"
                      requirement have been rejected during the characterization process.
Page 4                                                         Recommendations and Comments
Appendix 1




Page 5       Management Comments
Appendix 2

                                            PRIOR REPORTS


    Office of Inspector General

         •   Utilization of the Department's Low-Level Waste Disposal Facilities (DOE/IG-0505,
             May 2001). This report identified that the Department did not adequately utilize
             existing low-level waste disposal capacity at the Hanford Site or Nevada Test Site
             because it did not have a comprehensive approach to maximize waste disposal. As a
             result, the Department did not realize the maximum benefit from its $30 million
             investment for low-level waste disposal operations at Hanford and Nevada.

         •   The Department's Management and Operating Contractor Make-or-Buy Program
             (DOE/IG-0460, February 2000). This report showed that the Department of Energy
             Contract Reform Team concluded that the Department and its contractors should make
             more rational decisions concerning whether a contractor should "make" or "buy"
             services. The report recommended that field offices monitor the contractor
             implementation of make-or-buy programs by conducting thorough cost/benefit
             analyses prior to approval of any make-or-buy decisions.

         •   Disposal of Low-Level and Low-Level Mixed Waste (DOE/IG-0426, September 1998).
             The audit revealed that the Department incurred $5.3 million in unnecessary disposal
             costs for low-level waste between FYs 1993 and 1996 and incurred $27.1 million to
             build low-level waste disposal facilities at Savannah River and Oak Ridge even though
             off-site disposal would have been more cost-effective.


    General Accounting Office

         •   Low-Level Radioactive Wastes: Department of Energy has Opportunities to Reduce
             Disposal Costs (GAO/RCED-00-64, April 2000). The General Accounting Office
             (GAO) concluded that the Department did not have complete, comparable, and
             consistent information on the life cycle costs for its disposal facilities so that accurate
             cost comparisons could be made.




Page 6                                                                                           Prior Reports
Appendix 3
OBJECTIVE     The objective of the audit was to determine whether a centralized waste
              disposal characterization capability at WIPP would expedite the
              removal of CH-TRU waste and minimize costs.


SCOPE         The audit was performed between January and September 2002 at the
              Waste Isolation Pilot Plant (WIPP) in Carlsbad, New Mexico; the
              Hanford Site in Richland, Washington; and the Savannah River Site
              (SRS) in Aiken, South Carolina. We reviewed the activities associated
              with establishing a CH-TRU waste characterization capability at WIPP.
              The audit identified a material internal control weakness that
              management should consider when preparing its yearend assurance
              memorandum on internal controls.


METHODOLOGY   To accomplish the audit objective, we:

                 •   Researched applicable Federal and Departmental regulations;

                 •   Reviewed prior audit reports related to the audit objective;

                 •   Interviewed Department and/or contractor personnel at
                     Department Headquarters, WIPP, Hanford, and SRS;

                 •   Analyzed the Department's National TRU Waste Management
                     Plan;

                 •   Toured the proposed central characterization building at WIPP,
                     and the permanent characterization facility and mobile
                     characterization unit at the SRS;

                 •   Queried the 26 CH-TRU waste sites regarding plans for
                     disposing of waste; and,

                 •   Reviewed the FY 2002 budget for the planned TRU waste
                     characterization capability at WIPP.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, we
              assessed internal controls and performance measures established under
              the Government Performance and Results Act of 1993 related to the
              Department's management of WIPP. Because our review was limited,


Page 7                                        Objective, Scope, and Methodology
Appendix 3 (Continued)

                         it would not necessarily have disclosed all internal control deficiencies
                         that may have existed at the time of our audit. We did not assess the
                         reliability of computer-processed data because only a very limited
                         amount of such data was used during the audit.

                         We held an exit conference with the Director, Waste Isolation Pilot
                         Plant Office in Environmental Management's Office of Integration and
                         Disposition, and Carlsbad Field Office personnel, on December 12,
                         2002.




Page 8                                                    Objective, Scope, and Methodology
                                                                              IG Report No.: DOE/IG-0577

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
